WAIVER
Supreme Court of the United States

v.

AUG 1

2 2021

OFFICE OF THE CLERK

No. 21-5222

Adrienne Bush
(Petitioner)

Supreme Court, U.S.
FILED

Kenneth Nathan, Trustee
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
M

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
Supre
urt, Attn: Clerk's Office, I First Street, NE, Washington, D.C. 20543).

Signatu
Date: August 12, 2021
(Type or print) Name Kenneth A. Nathan
X3 Mr.
0 Ms.

0 Mrs.

0 Miss

Firm Nathan Law, PLC
Address 32300 Northwestern Hwy, Suite 200
City & State Farmington Hills, MI
Phone (248) 663-5133

zip 48334
Email ken@nathanlawplc.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Adrienne Bush, pro se

RECEIVED
AUG 2 0 2021
OFFIC
SUPR MECOURT RK
U.S.

NATHAN LAW, PLC
ATTORNEYS & COUNSELORS
32300 NORTHWESTERN HWY, SUITE 200
FARMINGTON HILLS, MICHIGAN 48334
TELEPHONE (248) 663-5133

August 12, 2021

Supreme Court
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
Re:

Adrienne Bush, Petitioner v Kenneth Nathan, Trustee
Case No. 21-5222

Dear Clerk:
Enclosed for filing, please find Waiver of response to the petition for a writ of certiorari.
Thank you for your attention to this matter.
Sincerely,
NATHAN LAW, PLC

Kenneth A. Nathan
KAC/kac
Encl.
cc:

Adrienne Bush, pro se
23332 Farmington Rd
Apt. #903
Farmington, MI 48336 (w/encl)

